Office of Inspector General


June 13, 2013

MEMORANDUM

TO:                  Mission Director, Thomas Staal

FROM:                Regional Inspector General/Cairo, Catherine M. Trujillo /s/

SUBJECT:             Survey of Security Services Employed by USAID/Iraq’s Contractors and Grantees
                     (Report No. 6-267-13-002-S) [REVISED]

This memorandum transmits a revised final report on the subject survey. We have considered
your comments on the draft report and included them, without attachments, in Appendix II. In
this revised report, we redacted information that constitutes confidential business information
and provided clarification on several matters. We also removed one example of unreasonable
labor costs. The revisions do not affect the report’s recommendations or the mission’s
management decisions thereon.

The final report includes six recommendations to improve oversight of the largest security and
life support subcontractor for USAID/Iraq’s contractors. Based on management’s comments on
the draft report, and other information provided, we acknowledge that the mission made
management decisions on all recommendations, and completed final action on
Recommendations 5 and 6. They are closed upon issuance of this report.

Please provide the Audit Performance and Compliance Division with the necessary
documentation to achieve final action on Recommendations 1, 2, 3, and 4.

Thank you for the cooperation and courtesy extended to the survey team during this survey.




U.S. Agency for International Development
USAID Office Building
1/A Nady El-Etisalat Street
Off El-Laselki Street
New Maadi
Cairo, Egypt
http://oig.usaid.gov
    SUMMARY OF RESULTS
    Because USAID contractors working in Iraq operate in a hostile environment, they need
    additional security and life support services to protect them from dangerous events such as car
    bombs, kidnappings, or improvised explosive devices.

    Security services involve two types of protection: mobile and static. Frequently, USAID
    contractors travel with a convoy of armored vehicles and a protective (or private) security detail
    (PSD)—a type of mobile security protection. Each PSD team consists of a leader, several
    expatriates,1 and a group of Iraqi security specialists; usually all of them carry weapons.

    Static protection refers to guards at a compound where contractors live. Each compound also
    requires life support services that consist of electricity, food, maintenance staff, and other basic
    living accommodations and services to take care of the buildings and equipment.

    The largest provider of security and life support services in Baghdad for USAID contractors is
    Sallyport Global Services.2 It leases and manages a compound of buildings in a neighborhood
    called Mansour. During 2011, the seven USAID contractors listed in Table 1 lived and worked at
    Mansour while implementing USAID-funded projects; they contracted with Sallyport under firm
    fixed-price (FFP) and time and material subcontracts (T&M).3

         Table 1. USAID Programs with Sallyport Subcontracts During 2011 (Unaudited)
      Contractor     Type of Subcontract         Start Date           End Date              Value ($)
       AECOM                 FFP                August 2010           July 2015            12,564,806
    ARD Inc./Tetra
                             FFP                October 2010       September 2015          14,828,838
      Tech/DPK
     Louis Berger
                        T&M plus FFP*            May 2007             May 2012             33,122,905
     Group–Inma
     Louis Berger
                        T&M plus FFP*            April 2008         January 2013           32,496,285
     Group–Tijara
     Management
       Systems               T&M                 June 2011           June 2015             27,581,208
     International
          RTI
                             FFP                October 2011       November 2012             531,000
     International
       University
                             T&M                October 2011         March 2015             9,946,852
    Research Co.
       University
                             FFP                March 2011         September 2011           1,789,020
    Research Co.
                                                      Total Value of Subcontracts         132,860,914
*
 Originally Louis Berger Group had separate subcontracts for security and life support for each program,
and they were merged in May 2010.




    1
      Expatriate guards are from other countries working under contract with Sallyport Global Services.
    2
      Kaseman-Sallyport International (KSI) formed in 2011, through the merger of Kaseman, LLC; Sallyport
    Global Services; and Project Management Services Inc.
    3
      See Federal Acquisition Regulation (FAR), Subparts 16.2 and 16.6, respectively.


                                                                                                           1
A FFP contract is suitable when reasonably definite specifications are available, and fair,
reasonable prices can be established from the outset by means of adequate competition,
previous purchasing history, or reasonably accurate identification of unexpected events and
their probable costs. A T&M contract can be used only when it is not possible to estimate the
extent or duration of the work accurately or to anticipate costs with any reasonable degree of
confidence. T&M contracts present the highest risk to the U.S. Government (and lowest risk to
the contractor), and thus they are the least desirable type for the Government.

The Regional Inspector General/Cairo (RIG/Cairo) conducted this survey to determine whether
Sallyport’s security and life support costs were allocated reasonably among USAID/Iraq
contracts and to follow up on Recommendations 1 and 3 of “Survey of Security Incidents
Reported by Private Security Contractors of USAID/Iraq‘s Contractors and Grantees” (Report
No. E-267-11-001-S), issued November 29, 2010.

This survey found that Sallyport did not allocate costs reasonably and that USAID/Iraq should
update serious incident reporting to clarify lines of communication since the U.S. military is no
longer in Iraq. We found the following problems.

   Sallyport’s accounting system was not adequate for government contracting (page 4).
   Therefore, USAID/Iraq cannot be certain that the security and life support costs the Agency
   paid prime contractors were allowable, allocable, reasonable, and in accordance with
   subcontract terms.

   Sallyport’s billing practices resulted in overcharges and unreasonable costs paid by USAID
   (page 6). Sallyport charged some contractors for days its non-dedicated PSD employees did
   not work. Sallyport also overstated the number of trips taken.

   The survey found a significant deficiency in Sallyport’s internal controls over labor time-
   keeping practices because of the lack of segregation of duties in certifying labor costs
   (page 12). For example, the finance director approved his own time sheets because nobody
   else was overseeing him. This practice, coupled with an inadequate accounting system,
   leaves USAID/Iraq susceptible to improper billing and fraud.

   USAID’s serious incident reporting process is outdated (page 12).

To address these problems, this survey report contains six recommendations for USAID/Iraq.

1. Direct prime contractors in writing to perform an accounting system and internal control
   review of Sallyport that includes verification (1) that Sallyport accounts for all costs by
   contract and (2) that appropriate internal controls, such as segregation of duties and general
   ledger reconciliation, are in place and functioning as intended (page 6).

2. Suspend all future security and life support payments for all prime contractors with Sallyport
   subcontracts until Sallyport implements an adequate cost accounting system (page 6).

3. Make a written determination whether to terminate all security and life support subcontracts
   with Sallyport, and work with USAID’s Compliance and Oversight of Partner Performance to
   determine whether it should start the process to suspend and/or debar Sallyport (page 6).




                                                                                               2
4. Determine the allowability of all security and life support costs incurred by Sallyport since
   2007 and billed to prime contractors, and issue a bill of collection as appropriate (page 11).

5. Make a written determination about establishing a direct contracting relationship between
   the mission and Sallyport, or another security and life support provider, to better monitor
   costs incurred. If USAID/Iraq decides against the direct contracting relationship, it should
   implement a written plan to make sure contractors are monitoring costs appropriately and
   proper surveillance is performed (page 12).

6. Issue a mission notice with new serious incident reporting procedures and administratively
   modify all awards to include them (page 13).

Detailed findings appear in the following section, and the scope and methodology appear in
Appendix I. Management comments, without attachments, are included in Appendix II, and our
evaluation of them is on page 14.




                                                                                               3
SURVEY FINDINGS
Sallyport’s Accounting System Was
Not Adequate
Sallyport has had FFP and T&M subcontracts with different USAID programs. In 2011
Sallyport’s active subcontracts were worth about $133 million.

Each USAID contractor is responsible for negotiating its security and life support subcontracts
and then regularly billing USAID for the costs. Because the mix of subcontracts included T&Ms,
Sallyport was required to have an accounting system that could accumulate and record costs by
contract within the general ledger, which summarizes a company’s financial transactions.

For T&M contracts, the material portion of the contract related to other direct costs such as food
and equipment is paid according to the contract’s allowable cost and payments clause, Federal
Acquisition Regulation (FAR) 52.216-7. This clause is required for both cost-reimbursable and
T&M contracts, and an adequate accounting system is necessary to carry out the clause’s
requirements. The system must be able to segregate and accumulate costs separately for any
and all various contracts and projects that the contractor is working on.

For the labor portion of T&M contracts, the U.S. Government wants to be certain that the hours
submitted for billing were segregated adequately and accumulated only for work performed on a
particular contract. Thus, it is necessary to have an accounting system that can validate the
hours actually spent working on the contract.

Sallyport’s FFP subcontracts varied in requirements for reimbursement. AECOM’s FFP
subcontract specifically required Sallyport to include in its invoices cumulative costs expended
against its budget and the hours or days individuals worked in the preceding month multiplied by
hourly or daily rate. DPK’s subcontract with Sallyport was designed as a performance-based
payment contract in which DPK agreed to pay Sallyport the full amount of its fixed invoices as
long as Sallyport met its performance indicators.

Sallyport’s accounting system was not adequate for government contracting. To determine
whether it accumulated and recorded costs by contract, we tested costs in August 2011. Our
analysis concluded that Sallyport’s costs billed to contractors funded by USAID did not agree
with those recorded in the company’s general ledger.

For example, in Table 2 for August 2011, Sallyport billed USAID contractors a total of $430,098
for services provided to its USAID clients (for fuel, utilities, leases, vehicles, and maintenance).
However, that same month Sallyport recorded in its general ledger $564,053 for these same
cost categories, leaving an unreconciled absolute value of $145,187 that is made up of
$139,736 in costs included in the general ledger but not in the billings and $5,451 in costs billed
but not included in the general ledger.

For this same period, we tried to reconcile procurement costs for items that Sallyport procured
directly for Louis Berger Group (LBG) and Management Systems International (MSI). For both
items tested, the costs recorded in the general ledger did not agree with the amounts billed.




                                                                                                  4
Finally, it is unclear whether the general ledger Sallyport provided includes all procurements. As
discussed in “Labor Rates Were Inflated” (page 9), Sallyport included the costs of some
procurements in its labor rates billed to clients. Table 2 summarizes the unreconciled costs.

                   Table 2. Unreconciled Costs, August 2011 (Unaudited)
                                                    Costs                            Percentage of
                                                                    Unreconciled
                                 Costs per       Recorded in                            Billings
         Cost Element                                                Difference*
                                 Billings ($)   General Ledger                       Unreconciled
                                                                          ($)
                                                     ($)                                  (%)
  shared procurement costs
  MSI direct procurements
  costs
  LBG-Tijara direct
  procurement costs
             Totals
 * The unreconciled difference represents the absolute dollar value of the transactions we could not
 reconcile from the billings in the general ledger, and from the general ledger to the billings. Using
 absolute value shows the total unreconciled differences rather than the net difference.

Sallyport recorded costs for shared procurements, like life support activities, as a lump sum
amount within the general ledger rather than recording each subcontract’s share of the cost
within the general ledger. For the T&M contracts, Sallyport allocated these costs to the contracts
during its billing process, but still did not make these adjustments in the general ledger.
However, for its FFP contracts Sallyport invoiced the fixed monthly budget amount illustrated in
each of the FFP subcontracts, and did not calculate or record the FFP subcontracts’ allocation
of shared procurement costs. There is no way to tell from the general ledger whether Sallyport
allocated the shared costs equitably to all contracts.

By not recording the shared costs by subcontract within the general ledger, Sallyport was not
able to provide the minimum invoice data to AECOM required by its subcontract terms—
cumulative costs expended compared with its budget and the hours or days people worked.

Lastly, Sallyport did not have adequate internal controls for certain labor categories, addressed
in more detail in the finding “Sallyport Lacked Oversight for Time Card Approvals” (page 12).

Sallyport did not design its system to track costs by individual contracts because it groups all
costs that it cannot bill directly into one pool and then applies a methodology to allocate the
costs among its T&M contracts, not its FFPs. We determined that this methodology is not
reasonable. It has affected USAID/Iraq’s ability to contract for a full, organization-wide financial
audit of Sallyport. In June 2012 USAID/Iraq asked the Defense Contract Audit Agency (DCAA)
to conduct a full audit of Sallyport. However, since this could not begin until Sallyport provided a
full accounting of its costs, the mission cancelled that request in August 2012.

Because Sallyport’s accounting system is not adequate, USAID/Iraq has no assurance that
security and life support costs paid to prime contractors are allowable, allocable, reasonable,
and in accordance with subcontract terms. Without an adequate accounting system, there is a
risk that Sallyport could charge cost overruns on its FFP contracts to its T&M subcontracts,
which according to FAR 31.205-23 is expressly not allowed.




                                                                                                         5
To mitigate the risks for the U.S. Government in the future, the contracting officer can work with
USAID’s Compliance and Oversight of Partner Performance division to use authority under FAR
9.407-2(c), “Causes for suspension,” which allows the Agency to suspend future contract
awards for any cause of so serious or compelling a nature that it affects the present
responsibility of the subcontractor. Therefore, we make the following recommendations.

   Recommendation 1. We recommend that USAID/Iraq’s contracting officer direct prime
   contractors in writing to perform an accounting system and internal control review of
   Sallyport Global Services, which includes verification (1) that Sallyport Global Services
   accounts for all costs by contract, and (2) that appropriate internal controls, such as
   segregation of duties and general ledger reconciliation, are in place and functioning as
   intended.

   Recommendation 2. We recommend that USAID/Iraq’s contracting officer suspend all
   future security and life support payments for all prime contractors with Sallyport Global
   Services subcontracts until Sallyport Global Services implements an adequate cost
   accounting system.

   Recommendation 3. We recommend that USAID/Iraq’s contracting officer make a
   written determination about terminating all security and life support subcontracts with
   Sallyport Global Services and work with USAID’s Compliance and Oversight of Partner
   Performance division to start suspension and/or debarment procedures on Sallyport
   Global Services.

Sallyport’s Billing Practices Resulted
in Overcharges and Unreasonable
Costs
According to FAR, Subpart 16.3, the U.S. Government will reimburse costs to the extent they
are reasonable, allocable, and determined to be allowable.

Sallyport overcharged USAID contractors for security and life support costs. In some cases,
USAID contractors paid for services they did not receive, for employees who did not work, and
for employees whose jobs the contractors had not approved. In addition, the company billed for
security services when it did not have a contract. These incidents and others are discussed
below.

Contractors Billed for PSD Trips They Did Not Take. Sallyport maintains eight PSD teams
that provide protection and security to contractor employees when they travel outside of the
Mansour compound. A team consists of a leader, several expatriate guards, and a group of Iraqi
security specialists. Sallyport operates these teams from the compound and at times has
supported up to seven USAID/Iraq projects whose contractors live and operate on the
compound.

Louis Berger Group (LBG) contracted with Sallyport to provide services to support two different
USAID/Iraq programs—Inma and Tijara. According to the contract, Sallyport dedicated three
PSD teams to support these programs. The remaining non-dedicated teams supported other
contractors.




                                                                                                6
A review of Sallyport’s biweekly invoices confirmed that it was billing LBG for the
three dedicated teams. However, we determined that LBG was billed for PSD trips that did not
directly support the firm’s contracts. For example, from December 16 to December 31, 2011,
Sallyport used two of LBG’s teams to transport five other contractors on 16 different trips.
During that same period, LBG used its dedicated teams for only 3 trips—16 percent of the
19 trips those teams made. However, for that billing period, Sallyport billed LBG projects for all
19 trips. As a result, LBG paid             when it should have only paid          —resulting in
unreasonable costs of           for that 2-week period.

Even though LBG had dedicated PSD teams, in at least one instance Sallyport assigned a
nondedicated team to support the Inma program. Instead of billing that program for the trip,
Sallyport allocated the cost among the other five USAID/Iraq contractors. While the amount was
immaterial, it demonstrates a flaw in Sallyport’s allocation and billing methodology.

Contractors Paid Sallyport Salaries for Nondedicated PSD Employees When They Did
Not Work. During an analysis of Sallyport’s allocation methodology, we determined that it was
billing contractors for the total number of days that nondedicated PSD teams were in Iraq,
including days when they were not working.

For example, in one billing period—August 1 to 15, 2011—five teams each had a PSD team
leader in country, and Sallyport charged            per day for each one. The total cost for all
five leaders during that period was             which Sallyport allocated among its contracts. One
of those, MSI, was billed for 44.44 percent of the total—           —because its share of the total
number of trips for this billing cycle came to 44.44 percent.

Our analysis determined that even though the team leaders were in country a combined 75
days in that billing period, Sallyport recorded in its trip logs that PSD team leaders went on trips
only 42 of those 75 days. So MSI should have been billed 44.44 percent of 42 days worked by
PSD team leaders at          a day, which comes to               rather than           calculated using
75 days. Just for the team leader, Sallyport billed MSI                  for labor that did not directly
benefit its contract. Applying this same analysis to two other labor categories that make up the
PSD team resulted in MSI being overcharged by a total of                    that did not directly benefit
its contract, as shown in Table 3 below.

         Table 3. Unreasonable Costs Paid by MSI, August 1-15, 2011 (Unaudited)
                            Days        MSI         Daily
  PSD Labor     Days in                                        Actual     Correct Bill   Unreasonable
                             on      Allocation     Labor
   Category     Country                                        Bill ($)       ($)          Cost ($)
                            Trips        (%)       Rate ($)
 Team leader         75        42        44.44
 Expats             184       102        44.44
 Iraqis             273       160        44.44
                                                              Total

Sallyport’s reasoning for charging the total number of days in the billing cycle for the PSD labor
categories is because when not supporting trips these categories are providing static security. If
the teams are providing static security, then Sallyport should be charging a lower labor rate
because the daily rate for static security guards is much lower than for PSD guards.

Furthermore, our analysis indicated that Sallyport is not using PSD resources efficiently and
potentially might be overstaffed. For example, Sallyport’s PSD team leaders supported trips only



                                                                                                        7
56 percent of the time they reported to work; the remaining 33 days they did not support trips
and according to Sallyport were used as static support (trips occurred on 42 of 75 days from
August 1 to 15, 2011) indicating an underutilization of PSD teams on contract with Sallyport.

Sallyport Overstated Number of PSD Trips. Sallyport frequently transports two or
three contractors on the same trip. In cases like this, it makes sense for each contractor to
share in the cost of that trip.

However, Sallyport recorded a trip for each contractor—and charged accordingly. For example,
Sallyport’s trip log shows that on August 11, 2011, one PSD team transported employees of two
different contractors to the Baghdad International Airport. Instead of allocating each contractor
half of the trip, Sallyport recorded one trip per contractor. We estimated that during
August 2011, Sallyport assigned five PSD teams to support multiple contractors on the same
trip on 22 different occasions; in December, this occurred 24 times.

To show the costs resulting from this practice, we recomputed in Table 4 what each USAID/Iraq
contractor’s share of total trips should have been if Sallyport had divided the costs equitably
among the contractors for the billing period of December 16 through 31, 2011. MSI was billed
unreasonable costs of              and University Research Co. (URC) was billed unreasonable
costs of         . Additionally, Sallyport did not allocate any PSD trips to LBG’s Tijara program
even though program employees were transported several times during this period.

                     Table 4. Costs for PSD Trips With Multiple Contractors
                               (December 16-31, 2011—Unaudited)
                 Number      Recorded      Actual      Corrected      Cost
                                                                               Adjusted    Unreasonable
 Contractor      of Trips    Allocation    Number      Allocation     Billed
                                                                               Costs ($)     Cost ($)
                Recorded         (%)       of Trips        (%)         ($)
 MSI                19            38          8.83        21.0
 AECOM              16            32        11.83         28.2
 DPK                 8            16         2.83          6.7
 URC                 5            10         1.83          4.4
 RTI                 2             4         1.0           2.4
 LBG-Tijara          0             0        15.67         37.3
 Totals            50           100           42          100
* Sallyport had firm fixed-price contracts with these three contractors.

Sallyport Did Not Record Personal PSD Trips. Sallyport used PSD teams to transport its own
employees. However, when this occurred, Sallyport did not include those trips in the overall
count used to calculate the percentage of trips for each user. For example, from August 1 to 15,
2011, Sallyport reported 63 trips in total, but did not include four trips in which PSD teams were
used to transport Sallyport employees. This meant that contractors paid more for their trips than
they should have. For example, Sallyport completed 28 trips for MSI out of 63 counted, and it
allocated MSI 44.44 percent of security labor costs during that period. Had Sallyport included
the four trips made for its personnel, then MSI’s percentage for this billing period would have
been 41.79 percent (28 out of 67 trips). The overall cost impact, as shown in Table 5, is that
Sallyport billed MSI a portion of the PSD labor to move its own personnel amounting to          .




                                                                                                          8
              Table 5. MSI’s Unreasonable Costs (August 1-15, 2011—Unaudited)
                               Original    Adjusted      Daily
                     Days                                             Actual        Correct     Unreasonable
 Labor Category               Allocation   Allocation    Labor
                    Worked                                            Bill ($)      Bill ($)      Cost ($)
                                  (%)          (%)      Rate ($)
Security director      5         44.44        41.79
“Inter officer”        5         44.44        41.79
“Ops controller”       8.55      44.44        41.79
PSD team
                      75         44.44       41.79
leaders
PSD–Expats           184.25      44.44       41.79
PSD–Non-Iraqis         60        44.44       41.79
PSD–Iraqis            273        44.44       41.79
Vehicles and
                       *         44.44       41.79
maintenance
                                                                                 Total
* Vehicles and maintenance is a direct procurement cost category that uses the same 44.44 percent cost
allocation to assign costs to contractors, and it is affected by the adjusted cost allocation.

 Based on our review of December 2011 trip logs, Sallyport stopped tracking trips for its own
 personnel. Without this data, we could not quantify how this affected contractors that are
 effectively paying for Sallyport’s personal PSD trips during that period. Furthermore, since
 Sallyport does not account for costs on its FFP contracts, we are not able to determine what
 impact, if any, these allocation flaws have on how costs were charged to differing types of
 contracts.

 USAID Contractors and Sallyport Did Not Negotiate Some Labor Categories, and
 Associated Costs Were Not Included in Approved Budgets. Sallyport billed labor for 4 out of
   labor categories for which it did not have the contractor’s approval, as shown in Table 6, in
 August and December 2011. Each contractor was billed unreasonable costs, totaling

                               Table 6. Unreasonable Labor Costs ($)
                              (August and December 2011—Unaudited)
                                                          LBG–             LBG–          Unreasonable
             Labor Category         MSI       URC
                                                          Tijara           Inma              Cost
          Security director
          Inter officer
          Ops controller
          Static guard manager
                                                                   Total

 Labor Rates Were Inflated. Our analysis determined that Sallyport develops its daily labor
 rates by factoring in costs for fringe benefits, overseas allowances (such as danger pay and
 post allowances), general and administrative expenses, and other direct costs beyond the
 shared procurement costs that are charged directly. For example, according to Sallyport, those
 other direct costs included various types of equipment, including AK-47s, 9-millimeter side arms,
 body armor, distress flares, reserve ammunition, and night vision goggles. However, according
 to FAR 16.601 direct materials for time-and-material contracts means those materials used
 directly in connection with the furnishing of the service and should be acquired based on the
 actual cost of the material. For PSD labor categories requiring these items, the costs are



                                                                                                         9
overstated by billing them as part of the daily labor rates because this method does not take into
account actual usage and procurement of these items. Furthermore, these items do not appear
to be reasonable costs to include in labor rates associated with non-PSD labor categories, such
as the finance manager and life support director.

Furthermore, in the subcontract with URC, Sallyport did not bill URC in the same manner it had
proposed during negotiations; Sallyport officials said the fixed daily labor rates included wages,
overhead, insurance, and other fringe costs. Sallyport stated in its proposal that general and
administrative costs, other fees, and other direct costs would be shown separately, but this did
not happen.

Similarly, LBG’s subcontract for the Tijara program gave an example of an invoice showing how
other direct costs needed to be identified separately from direct labor rates, but Sallyport did not
account and bill for the costs in accordance with the prescribed invoice.

Lastly, Sallyport added a final fee to labor rates based on an arbitrary percentage with no
explanation for what this fee represented. The arbitrary markup varied per labor category,
ranging anywhere from a markdown of       percent to a markup of percent.

To show the impact of these inflated rates over a 2-month billing cycle, we recalculated the cost
for the project leader, shown in Table 7. If the rates had not been inflated, USAID would have
paid $2,395 less for this position.

      Table 7. Costs for Project Leader ($) (August and December 2011—Unaudited)
          Labor        Inflated   Recalculated     Actual        Correct      Unreasonable
         Category        Rate        Rate          Charge        Charge           Cost
           URC
           MSI
        LBG–Tijara
        LBG–Inma
                                                            Total
      * The project leader did not work many days in December. URC did not have a T&M
      contract in August, and most of what was billed in August and December was for the time
      the project leader worked in August. The project leader was out of country a few days in
      December, and his time was allocated among many contractors based on each contractor’s
      headcount at the compound.

Service Costs Varied. All contractors living on the Mansour compound pay for Sallyport life
support services, and they all get the same services. However, they were not all paying the
same rates. For example, LBG paid a daily rate of     per person for its meals, while MSI and
URC paid      — percent more than LBG. As shown in Table 8, in December 2011 MSI and
URC paid $7,749 more because Sallyport billed them at a higher rate than LBG.




                                                                                                 10
              Table 8. Recalculation of Meal Costs for December 2011 (Unaudited)
                                     Lowest                    What Could
                      Contractor                   Actual                     Unreasonable
        Contractor                  Negotiated                 Have Been
                        Rate                       Charge                         Cost
                                      Rate                      Charged
        LBG–Tijara
        MSI
        URC
                                                            Total

Sallyport Provided Services to RTI Without a Contract. Initially Sallyport and RTI formed a
master agreement, but it was clear that Sallyport would not provide services until a contract was
signed. However, according to invoices provided, RTI began incurring security costs totaling
         per month in October 2011—10 months before the contract was signed (July 2012);
therefore, the incurred costs were questionable.

In addition, Sallyport billed RTI only for security costs and not for life support costs, even though
RTI employees stayed at Mansour. So Sallyport’s costs to provide life support to RTI employees
were absorbed by the other USAID contractors.

The problems discussed above went undetected because while USAID/Iraq relied on DCAA and
local public accounting firms to conduct financial audits of each of its prime contractors, these
individual contract audits only verified costs Sallyport billed to each prime contractor and did not
include detailed audit steps of Sallyport’s allocation methods and general ledger. The mission
has been in discussions with DCAA since June 2012 planning for a global audit of Sallyport.
However, DCAA cannot start until Sallyport provides a full accounting of its costs.

Because USAID/Iraq required each individual contractor to contract separately for security, the
mission did not have direct contracting authority over Sallyport. As a result, each USAID
contractor negotiated its separate contract with Sallyport—some negotiating FFP contracts and
others T&M. Each contractor was responsible for surveillance of Sallyport’s operations and
costs. However, no one organization was holding Sallyport accountable to verify that efficient
methods and effective cost controls were applied.

Furthermore, most of Sallyport’s subcontracts are T&Ms that, according to FAR 16.601(c)(1),
“Government surveillance,” do not give contractors any financial incentives to control costs or be
efficient. Therefore, surveillance of contractors with T&Ms is required to give reasonable
assurance that efficient methods and effective cost controls are being used. No such
surveillance was in place for the overall operations of Sallyport in Iraq.

The survey only examined 2 months of invoices and provided only discrete examples of
Sallyport’s flawed cost allocation methodology in sampled biweekly billings. The true magnitude
of unreasonable costs billed to USAID/Iraq cannot be determined until a financial audit covering
the entire organization is performed. From July 1, 2011, to June 30, 2012, Sallyport billed the
U.S. Government—through USAID/Iraq’s contractors—$13.5 million. Correcting Sallyport’s cost
allocation methodology could help the mission recover significant amounts of money.

   Recommendation 4. We recommend that USAID/Iraq’s contracting officer determine
   the allowability of all security and life support costs incurred by Sallyport Global Services
   since 2007 and billed to prime contractors, and issue a bill of collection as appropriate.



                                                                                                   11
   Recommendation 5. We recommend that USAID/Iraq make a written determination
   about establishing a direct contracting relationship with Sallyport Global Services, or
   another security and life support provider, to better monitor costs incurred. If USAID/Iraq
   decides against the direct contracting relationship, USAID/Iraq should develop a written
   plan to verify that contractors are monitoring costs appropriately and proper surveillance
   is performed.

Sallyport Lacked Oversight for Time
Card Approvals
The Committee of Sponsoring Organizations of the Treadway Commission’s Internal Control—
Integrated Framework explains that control activities should be divided among different people
to reduce the risk of inappropriate or fraudulent actions. This concept is referred to as proper
segregation of duties.

The survey found a significant deficiency in Sallyport’s internal controls over charging for hours
worked because of the lack of segregation of duties in certifying costs. Sallyport uses a biweekly
time sheet to record whether an employee attended work or had a day off. As a control activity,
a Sallyport director or manager approves the completed time sheet. We saw four from August
and December 2011; in three instances, the finance director approved his own time sheet.

We consider this a significant deficiency because this was a practice, not an anomaly. The
finance director said because he is the only one who controls the financial activities at Mansour,
it is practice for him to approve his time.

Without proper segregation of duties, the director could override controls because he has
freedom to make decisions not reviewed by other Sallyport managers. Improper segregation of
duties coupled with an inadequate accounting system leaves USAID/Iraq susceptible to
improper billings and potentially to fraud. Since we are recommending a full accounting system
review in the first finding, we are not making an additional recommendation here.

USAID’s Serious Incident Reporting
Process Was Outdated
Mission Notice 09-03-001 dated March 15, 2009, established serious incident reporting
procedures and required that a clause related to these procedures be included in all award
documents, including subcontracts. USAID/Iraq updated those procedures on January 5, 2011,
and established a plan to make sure the clause was included in all mission award documents.

Although all awards surveyed included the required reporting procedures, they were out of date
because they made frequent reference to Contractors Operations Cell (CONOC) established by
U.S. Forces-Iraq (USF-I). USF-I left Iraq in December 2011, and CONOC no longer exists.

USAID/Iraq had not issued a new mission notice or taken proactive measure to officially update
the serious incident reporting clause in mission award documents because it decided to handle
this informally. As a result, the lines of communication and reporting requirements were no
longer clear among contractors and security contractors.




                                                                                                 12
Recommendation 6. We recommend that USAID/Iraq issue a mission notice with new
serious incident reporting procedures and modify all awards with the updated language.




                                                                                         13
EVALUATION OF MANAGEMENT
COMMENTS
In its comments on the draft report, USAID/Iraq agreed with all six recommendations. We have
acknowledged management decisions on all recommendations. Final action was taken on
Recommendations 5 and 6. A detailed evaluation of management comments follows.

Recommendation 1. The mission stated that KSI would start conducting an internal audit in
June 2013. The mission further stated that contractors would be responsible for making sure
that the audit is thorough and directly addresses this survey’s findings. Contractors also will
have to explain what systems or processes are in place to verify invoice accuracy. The mission
will verify the results of the internal audit by conducting an Agency-contracted audit that should
begin around September 2013 and would be finished 4 to 6 months later. Based on the
mission’s planned actions, we acknowledge that the mission made a management decision.
Final action will be taken when the mission receives verification from the Agency-contracted
audit, to be completed around January 31, 2014, that Sallyport has an adequate accounting
system in place and has appropriate internal controls that are operating effectively.

Recommendation 2. The mission decided that it would suspend payments and/or withdraw
consent for cost reimbursements with Sallyport if the KSI internal audit and Agency-contracted
audit determine Sallyport does not have an adequate accounting system that allocates costs by
contract, and if prime contractors have contingency plans for security and life support services.
Based on the mission’s planned actions, we acknowledge that the mission made a management
decision. Final action will be taken when the mission makes a determination about suspending
payments based on the result of the Agency-contracted audit to be completed around
January 31, 2014.

Recommendation 3. The mission made a written determination on June 3, 2013, about
terminating all security and life support subcontracts with Sallyport. Because USAID does not
have authority to directly terminate subcontracts with Sallyport, the contracting officer will
instead withdraw consent for the subcontracts through prime contractors if the KSI internal audit
and Agency-contracted audit determine Sallyport does not have an adequate accounting
system that allocates costs by contract, and if prime contractors have contingency plans for
security and life support services. Based on the mission’s planned actions and supporting
documentation provided, we acknowledge that the mission made a management decision. Final
action will be taken when the mission makes a determination about withdrawing consent for
subcontracts based on the result of the Agency-contracted audit to be completed around
January 31, 2014.

Recommendation 4. The mission stated that based on the results of an Agency-contracted
audit, the contracting officer will make a determination regarding the allowability of costs, and a
bill of collection will be issued, as appropriate. Based on the mission’s planned actions, we
acknowledge that the mission made a management decision. Final action will be taken when
the mission determines the allowability of costs around January 31, 2014.

Recommendation 5. The mission made a written determination on June 3, 2013, that
contracting direct with Sallyport was not feasible. In response, as part of its written



                                                                                                14
determination, the mission documented a written plan to verify that prime implementing partners
are monitoring costs incurred by Sallyport adequately through periodic follow-up measures.
Based on the mission’s actions and supporting documentation provided, we acknowledge that
the mission made a management decision and final action was taken on this recommendation.

Recommendation 6. The mission issued a mission notice on June 3, 2013, with new serious
incident reporting procedures. The mission also stated that the contracting officer would notify
all implementing partners of the new requirements by June 9, 2013, and modify all awards to
incorporate the revised special provision. Based on the mission’s actions and supporting
documentation provided, we acknowledge that the mission made a management decision and
final action was taken on this recommendation.




                                                                                             15
                                                                                      Appendix I



SCOPE AND METHODOLOGY
Scope
RIG/Cairo conducted this survey in accordance with government auditing standards—
specifically, with the general standards in Chapter 3, the evidence standards in Sections 6.56
through 6.59, the documentation standards in Sections 6.79 through 6.83, and the standards for
developing elements of a finding in Sections 6.74 through 6.77. These standards require that we
plan and perform the work to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our survey objective. We believe the evidence
obtained provides that basis.

The purpose of this survey was to determine whether Sallyport’s security and life support costs
were allocated to USAID/Iraq contracts reasonably and to follow up on Recommendations 1
and 3 of Report No. E-267-11-001-S issued on November 29, 2010.

The survey covered a review of Sallyport accounting and billing practices using the costs
recorded in its general ledger and billed to its USAID contractors for August and
December 2011, which were selected judgmentally. Our survey did not include tests to
determine the allowability, allocability, or reasonableness of the costs for these 2 months. In
planning and performing this survey, we reviewed internal controls in place at Sallyport. Those
reviewed included but were not limited to controls of payroll, inventory management,
segregation of duties, and general ledger reconciliation. We also examined Sallyport’s
methodology for allocating and billing labor costs.

USAID/Iraq contractors also utilized other security and life support providers besides Sallyport,
such as G4S Risk Management Ltd. and Unity Resources Group Pte Ltd. Each operates in
similar compounds and provides the same services in other parts of Baghdad. The survey
chose to examine Sallyport because of the complexity of its operations, the multiple types of
subcontracts used with USAID contractors, and the volume of USAID/Iraq contractors
supported.

We conducted fieldwork at USAID/Iraq in Baghdad and at Sallyport’s Mansour compound in
Baghdad. The work took place from April 22, 2012, to February 25, 2013.

Methodology
To answer the survey objectives, we interviewed personnel from the mission, Sallyport
employees in Iraq and the United States, and contractor staff members who live in Mansour. We
conducted site visits to the compound and performed walk-throughs of Sallyport’s cost
allocation process. In addition to interviewing key personnel and making on-site observations,
we reviewed documents from the mission and Sallyport. Documents included prime contractor’s
subcontracts with Sallyport, invoices billed to contractors, PSD trip logs, employee time cards,
and accounting system data.




                                                                                              16
                                                                                     Appendix II



MANAGEMENT COMMENTS


MEMORANDUM
UNCLASSIFIED

DATE:         June 6, 2013

TO:           Catherine Trujillo, Regional Inspector General/Cairo

FROM:         Thomas H. Staal, Mission Director

SUBJECT:      Management Response to Draft Survey of Security Services Employed by
              USAID/Iraq’s Contractors and Grantees
              Report No. 6-267-13-00X-S

The Mission appreciates the careful attention and hard work of the Regional Inspector General
(RIG)/Cairo, and accepts the survey findings with great interest and concern. USAID/Iraq treats
findings of potentially fraudulent overcharging of the U.S. Government with the highest level of
seriousness. We are fully committed to ensuring the accountability of USAID contractors and
subcontractors, and to protecting and potentially recovering USAID funds. In response, USAID
has taken the following administrative and contract management actions to address immediately
the survey recommendations, as well as the larger issues of whether Kasemen-Sallyport
International (KSI) is presently a responsible organization, and whether any USAID
implementing partners or KSI may have submitted false claims to USAID:

       In response to a request from the USAID/Iraq front office, USAID/Iraq Regional Legal
       Advisor, Supervisory Contracting Officer, and Controller drafted a memorandum on May
       5, 2013 setting forth the overarching strategy for, and roles and responsibilities of both
       USAID/Iraq and Washington to address the survey findings;
       USAID/Iraq Regional Legal Advisor sent an Information Memorandum to the U.S.
       Ambassador to Iraq on May 8, 2013, copying, among others, USAID/W, RIG/Cairo,
       Department of State, FBI, and Department of Justice;
       The Mission Director, Deputy Mission Director and Regional Legal Advisor briefed the
       Charge d’Affairs on May 20, 2013;
       USAID/Iraq Regional Legal Advisor and Supervisory Contracting Officer meet with
       technical Office Directors and cognizant Contracting Officer’s
       Representatives/Agreement Officer’s Representatives (CORs/AORs) on a monthly basis
       to share the survey findings and updates;


                                                                                              17
                                                                                       Appendix II


       Office of General Counsel provided briefings to senior USAID officials, including the
       Acting Assistant Administrator for the Middle East Bureau, Alina Romanowski, on May
       10, 2013; and DeputyAdministrator Donald Steinberg on May 30, 2013;
       USAID/Iraq Contracting Officer sent letters to prime implementing partners and KSI
       setting forth the survey findings; KSI immediately expressed a high level of commitment
       to resolve the problems and has sent a senior corporate officer to Baghdad to assist in
       resolving these issues;
       Office of General Counsel/Office of Litigation and Enforcement (GC/LE) continues to
       work closely with KSI as they identify and address improvements in internal control
       accounting systems; GC/LE met with KSI to discuss a strategy to address the survey
       findings on May 20, 2013;
       GC/LE recommended that KSI perform an internal audit; KSI accepted this
       recommendation and expects to have auditors at the Sallyport offices in Baghdad in June;
       KSI sent a draft work plan for an internal investigation and audit of Sallyport’s operations
       on May 30, 2013;
       USAID/Iraq Contracting Officer sent additional guidance to implementing partners on
       May 23, 2013, instructing them to ensure that KSI’s internal audit is robust and addresses
       the findings of the survey, and to show what systems are in place to verify the accuracy
       of invoices received from Sallyport;
       USAID/Iraq Regional Legal Advisor and GC/LE Attorney continue to have weekly
       conference calls with the RIG special agent, in order to coordinate the ongoing
       investigation with any remedies or claims available to USAID;
       USAID/Regional Legal Advisor continues to work closely with GC/LE regarding
       potential suspension/debarment of certain organizations and/or individuals; GC/LE in
       turn coordinates with the Office of Acquisition and Assistance;
       USAID/Iraq arranged for the GC/LE attorney to come to Iraq for two weeks in late June;
       and
       USAID/Iraq Financial Management Office is in the process of engaging an auditing firm
       for an Agency Contracted Audit (ACA) of KSI and will begin the audit immediately after
       KSI completes its internal audit.

The Mission notes that we have taken proactive steps over the years to collect information and
respond to concerns about Sallyport operations, as follows:

       USAID/Iraq procured the services of the Defense Contract Audit Agency (DCAA) in
       2007 and 2008 to conduct audits for Sallyport billings to two prime contracts totaling $41
       million; no major issues were identified during these audits;
       USAID/Iraq requested DCAA to conduct audits of prime contracts, including Sallyport’s
       billings to the prime contractor, in November 2008; due to a backlog, DCAA was unable
       to initiate the audits until 2011; however, in March 2011, DCAA declined to include
       Sallyport billings as part of this audit, as Sallyport had not submitted certified incurred
       cost submissions for 2007-2010;
       USAID/OAA then instructed Louis Berger Group (LBG), the prime implementing
       partner with the largest Sallyport subcontracts, to address the lack of certified cost
       submissions; as a result, LBG issued a cure notice to Sallyport in June 2012;

                                                                                                 18
                                                                                       Appendix II


       In August 2012, USAID/Iraq requested that DCAA conduct a voucher review for
       Sallyport covering a sample period; on June 2, 2013, DCAA submitted a report covering
       the period of July-September 2012; DCAA reported no major problems with the cost
       allocation methodology or accounting system
       On May 14, 2013, KSI notified USAID/Iraq that Sallyport’s incurred cost submissions
       have been certified. USAID/Iraq immediately contacted DCAA regarding a global audit
       of Sallyport’s billings. Once DCAA accepts the certified cost submissions, USAID/Iraq
       will request DCAA to perform the audit. This audit will be in addition to the planned
       ACA.

The Mission has taken final action to close four of the recommendations. The Mission initiated
action on the other two recommendations and anticipates closing all recommendations by
January 31, 2014. We will send RIG an update on progress for the remaining two
recommendations by October 31, 2014.

Recommendation 1: We recommend that USAID/Iraq’s contracting officer direct prime
contractors in writing to perform an accounting system and internal control review of Sallyport
Global Services, which includes verification (1) that Sallyport Global Services accounts for all
costs by contract, and (2) that appropriate internal controls, such as segregation of duties and
general ledger reconciliation, are in place and functioning as intended.

Management Response: The Mission has taken the following actions to complete this
recommendation. On May 14, 2013, the USAID/Iraq Contracting Officer directed the prime
implementing partners (AECOM, Tetra Tech DPK, FHI 360, MSI, and URC) to conduct an
accounting system and internal control review of Sallyport that includes verification (1) that
Sallyport accounts for all costs by contract; and (2) that appropriate internal controls, such as
segregation of duties and general ledger reconciliation, are in place and functioning as intended.
The letter established a due date for this review of June 30, 2013.

As noted above, upon USAID’s recommendation, KSI agreed to perform a comprehensive
internal audit in response to the survey findings, which will subsequently be reviewed by a
Mission audit conducted by an ACA firm. Based on this development, the USAID/Iraq
Contracting Officer communicated to implementing partners on May 23, 2013 that they do not
need to conduct an accounting system and internal control review of Sallyport. Instead, the
implementing partners must ensure that KSI’s internal review is robust and directly addresses the
survey findings. In addition, the Contracting Officer asked the implementing partners to explain
what systems or processes were in place to verify the accuracy of invoices submitted by
Sallyport.

Based on the above, USAID deems that a management decision has been reached on this
recommendation, and final action has been taken. Therefore, we request closure of the
recommendation upon issuance of this report.

Recommendation 2: We recommend that USAID/Iraq’s contracting officer suspend all future
security and life support payments for all prime contractors with Sallyport Global Services
subcontracts until Sallyport Global Services implements an adequate cost accounting system.

                                                                                                19
                                                                                         Appendix II



Management Response: USAID/Iraq will suspend payments and/or withdraw consent for cost
reimbursement subcontracts with Sallyport if the following two conditions are present as of
October 31, 2013:

       (1) The KSI internal audit and the Agency Contracted Audit demonstrate that Sallyport
           does not have an adequate accounting system to allocate costs by contract; AND

       (2) USAID/Iraq and the prime implementing partners have a contingency plan in place
           that will prevent any gap in the provision of critical security and life support services.

USAID/Iraq agrees that in order to enter into cost reimbursement contracts, Sallyport must have
an adequate accounting system that can allocate costs by contract. However, due to the narrow
two month period covered by the survey, USAID/Iraq does not have sufficient information at
this time to immediately suspend all payments for expenses incurred by prime implementing
partners under cost reimbursement subcontracts with Sallyport. In addition, the June 2, 2013
DCAA report covering vouchers submitted between July-September 2012 did not highlight any
major problems with Sallyport’s cost allocation methodology.

Target date for completion is October 31, 2013.

Recommendation 3: We recommend that USAID/Iraq’s contracting officer make a written
determination about terminating all security and life support subcontracts with Sallyport Global
Services and work with USAID’s Compliance and Oversight of Partner Performance division to
start suspension and/or debarment procedures on Sallyport Global Services.

Management Response: USAID/Iraq signed a written determination about terminating all
security and life support subcontracts with Sallyport on June 3, 2013. This determination
concluded that USAID/Iraq does not have any legal authority to terminate the prime
implementing partners’ subcontracts with Sallyport, as USAID does not have privity of contract
with subcontractor Sallyport under FAR 42.505 (b)(1). However, the Contracting Officer does
have authority to withdraw consent for the subcontracts, which would in turn force the
implementing partners to terminate the subcontracts with Sallyport. The Contracting Officer will
withdraw consent for the subcontracts if: (1) the KSI internal audit and the Agency Contracted
Audit demonstrates that Sallyport does not have an adequate accounting system to allocate costs
by contract; and (2) USAID/Iraq and the prime implementing partners have a contingency plan
in place that will prevent any gap in the provision of critical security and life support services.

The USAID/Iraq Regional Legal Advisor continues to work closely with GC/LE, in coordination
with the Office of Acquisition and Assistance Compliance Division, to analyze the appropriate
action to best protect the U.S. Government’s interests based upon the facts and circumstances of
this case. At this time, given KSI’s cooperative response, the Office of General
Counsel/Litigation and Enforcement and the Compliance Division will work closely with KSI as
they take steps to improve their accounting system and internal controls, and establish that they
are a presently responsible organization.


                                                                                                   20
                                                                                        Appendix II


Based on the above, USAID deems that a management decision has been reached on this
recommendation, and final action has been taken. Therefore, we request closure of the
recommendation upon issuance of this report.

Recommendation 4: We recommend that USAID/Iraq’s contracting officer determine the
allowability of all security and life support costs incurred by Sallyport Global Services since
2007 and billed to prime contractors, and issue a bill of collection as appropriate.

Management Response: The Mission concurs with this recommendation. The Mission plans to
contract with a regional accounting firm to carry out a comprehensive ACA of costs billed by
Sallyport to USAID/Iraq implementing partners. The Financial Management Office consulted
RIG/Cairo regarding the scope and timing of this audit. As agreed with the RIG, the ACA will
immediately follow and verify the results of the KSI internal audit, which will begin work in
June. We estimate that work for the ACA will begin on/around September/October 2013 and
take four to six months. Based on the findings of the audit, the Contracting Officer will make a
determination regarding the allowability of costs, and a bill of collection will be issued, as
appropriate. USAID/Iraq will provide an update to RIG/Cairo on the progress of the ACA by
October 31, 2014. 41 U.S.C. §605(a), as implemented by FAR 33.120, prohibits the Contracting
Officer from settling, paying, compromising or otherwise adjusting any claim involving fraud.
Therefore, if the implementing partners knowingly submitted false and inflated costs invoices to
USAID, this may limit the ability of the Mission to issue a bill of collection that could be
construed as a settlement.

Target date for completion is January 31, 2014.

Recommendation 5: We recommend that USAID/Iraq make a written determination about
establishing a direct contracting relationship with Sallyport Global Services, or another security
and life support provider, to better monitor costs incurred. If USAID/Iraq decided against the
direct contracting relationship, USAID/Iraq should develop a written plan to verify that
contractors are monitoring costs appropriately and proper surveillance is performed.

Management Response: The USAID/Iraq Contracting Officer made a written determination on
June 3, 2013 about establishing a direct contracting relationship with Sallyport. Specifically,
USAID/Iraq has determined that it is not feasible to enter into a direct contracting relationship
with Sallyport or another security and life support provider, for the following reasons:

       USAID/Iraq is currently scheduled to close by December 2015. It would take
       approximately a year to draft the scope of work, carry out market research, and conduct a
       full and open competition. By the time that a contract could be awarded, the Mission
       would have little more than a year left before closure. Further, the Mission simply does
       not have sufficient staff to take on the additional responsibility of managing a new
       contract. As part of the downsizing of the USG presence in Iraq, USAID/Iraq lost 60%
       of its expatriate staff in February 2013.

       A direct contract for security services makes the U.S. Government directly and legally
       responsible for assuring the continuing safety of the implementing partners’ personnel. A

                                                                                                  21
                                                                                        Appendix II


       risk exists that USAID may be potentially liable to those parties (and to third parties)
       should a USAID-contracted entity fail to perform or perform improperly resulting in
       personal injury or death or property damage.

       Prime implementing partners should have a direct contractual relationship with the
       security provider because they are in the best position to judge and make immediate
       decisions regarding what actions are required in any given situation and how to respond
       to security threats/incidents.

On June 3, 2013, USAID/Iraq documented a written plan to verify that prime implementing
partners are adequately monitoring costs incurred by Sallyport through the following actions:

       Remind implementing partners that they are responsible to establish that costs incurred
       are allowable, allocable and reasonable;

       Instruct the implementing partners to explain what systems or processes are in place to
       verify the accuracy of invoices submitted by Sallyport;

       Include in the scope of the ACA a review of the systems and processes used by prime
       implementing partners to verify the accuracy of invoices submitted by Sallyport;

       In June 2014 and December 2014, contract with DCAA or another audit firm to conduct a
       voucher review of invoices submitted by Sallyport to USAID prime implementing
       partners;

       On a spot-check basis, request additional documentation for vouchers submitted by prime
       implementing partners; and

       Meet on a monthly basis with cognizant COR/AORs to improve oversight and
       compliance by implementing partners, from now until January 2014.

Based on the above, USAID deems that a management decision has been reached on this
recommendation, and final action has been taken. Therefore, we request closure of the
recommendation upon issuance of this report.

Recommendation 6: We recommend that USAID/Iraq issue a mission notice with new serious
incident reporting procedures and modify all awards with the updated language.

Management Response: The Mission concurs with this recommendation. However, the
Mission also notes that contractors generally understood that after the departure of the U.S.
military, contractors no longer had to report serious incidents to the U.S. Forces-Iraq Contractors
Operations Cell (CONOC). When two USAID/Iraq subgrantee employees were killed on March
31, 2013, USAID/Iraq contractor TetraTech DPK understood and followed the proper lines of
communication and reporting requirements for serious incidents. USAID/Iraq issued an updated
Mission Notice on serious incident reporting on June 3, 2013. The Contracting Officer will issue

                                                                                                  22
                                                                                    Appendix II


a notice to all implementing partners by June 9, 2013 and will individually modify all awards to
incorporate the revised special provision. Based on the above, USAID deems that a management
decision has been reached on this recommendation, and final action has been taken. Therefore,
we request closure of the recommendation upon issuance of this report.




                                                                                             23
